CERTIFICATE OF WORD COUNT
NO. 20-659
Thompson,
Petitioner,
v.
Clark et al.,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the BU CENTER FOR ANTIRACIST RESEARCH AMICUS AT MERITS STAGE IN SUPPORT OF PETITIONERS contains 7876 words,
including the parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
June 11, 2021

SCP Tracking: One Silber Way, FL 8-Cover Light Green

